C'OCKLE

2311 Douglas Street CA L al Briefs E-Mail Address:
Omaha, Nebraska 68102-1214 €8 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-942

LAUREL ZUCKERMAN, AS ANCILLARY
ADMINISTRATIX OF THE ESTATE
OF ALICE LEFFMANN,
Petitioner,

Vv.

THE METROPOLITAN MUSEUM OF ART,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 24th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICI CURIAE ARMENIAN BAR ASSOCIATION
AND ARMENIAN LEGAL CENTER FOR JUSTICE AND HUMAN RIGHTS IN SUPPORT OF PETITIONER in the
above entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to

the following:

SEE ATTACHED

To be filed for:

SEEPAN V. PARSEGHIAN
Counsel of Record

OWEN MCGOVERN

MARY KATE RAFFETTO

BECK REDDEN LLP

1221 McKinney, Suite 4500

Houston, TX 77010

(713) 951-3700

sparseghian@beckredden.com

Counsel for Amici Curiae

Subscribed and sworn to before me this 24th day of February, 2020.
{am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE \
General Notary .
State of Nebraska . Lh Qudraw- ‘

Notary Public Affiant 39479

My Commission Expires Nav 24, 2020

 
Mary-Christine Sungaila, Esq.
Counsel of Record

William Feldman, Esq.

Marco A. Pulido, Esq.

Haynes and Boone, LLP

600 Anton Boulevard

Suite 700

Costa Mesa, CA 92626

(949) 202-3062

MC.Sungaila@haynesboone.com

David W. Bowker, Esq.
Counsel of Record
Michael David Gottesman, Esq.
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, N.W.
Washington, DC 20006
(202) 663-6558
david. bowker@wilmerhale.com
